WAIVER

Supreme Court of the United States

No. 20-1618

John Anthony Gentry v. Glen Casada, et al.
(Petitioner) (Respondents)

1 DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is
requested by the Court.

Please check the appropriate box:
@ Lam filing this waiver on behalf of all respondents.

oO Ionly represent some respondents. I am filing this waiver on behalf of the following
respondent(s):

 

 

Please check the appropriate box:

c Lama member of the Bar of the Supreme Court of the United States. (Filing Instructions:
File a signed Waiver in the Supreme Court Electronic Filing System. The system will
prompt you to enter your appearance first.)

w& Lamnot presently a member of the Bar of this Court. Should a response be requested, the
response will be filed by a Bar member. (Filing Instructions: Mail the original signed form
to: Supreme Court, Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).

Seni In. KL
Mois, 2a 2021

 

Date:

(Type or print) Name Janet M. K leinfel ler

OM. CMs. Mrs, Oi Miss
Fim Office Of Tennessee Atfornay Genera!
Address P.O. Box 20907
city & State Nashwule , TA) 37 209~ Zip
Phone LIS~"I4/- 140% Email janet Khun flier 2 ag n.gov
A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER IF

PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY OF THIS
FORM. NO ADDITIONAL CERTIFICATE OF SERVICE OR COVER LETTER IS REQUIRED.

ce: ohn Gentry
208 Nave)0 Cour fF
Grod lett fulle ~RY STO72-
